OIG Investigative Reports Press Release, Burlington, VT 12/19/2012 - United States and Norwich University Settle Allegations of Fraud in Student Aid
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
UNITED STATES ATTORNEY'S OFFICE
District of Vermont
December 21, 2012
United States and Norwich University Settle Allegations of Fraud in Student Aid
The Office of the United States Attorney for the District of Vermont stated today that it has settled a potential False Claims Act matter involving student aid requested by Norwich University for a number of its students. The settlement includes the payment of $1,281,168 to the Government by the University.
The Government's investigation arose in 2008 following an audit by the U.S. Department of Education's Federal Student Aid Division. During the course of that audit, it became clear that a high ranking officer of the University, who has since been dismissed by the University, had been instructing students to assert that they were independent of their parents, even when they were not. While the University does not admit that it approved or authorized the misconduct, the practice greatly increased the amounts of student aid available to those students, which aid was immediately used to pay tuition at Norwich.
The Government's investigation focused on three school years, ending in the 2006-2007 school year. When the audit disclosed the problem, Norwich repaid those amounts which were open for the last period of time in which the improper aid was available. While Norwich has been extremely cooperative since the audit disclosed the problem, the Government believes that the matter must be treated as one involving fraud. While Norwich does not admit to any institutional fraud, it acknowledges that its students did receive a significant amount of federal aid to which they were not entitled, as a result of Norwich's actions, and Norwich and the United States have settled to avoid the burden, expense and risks inherent in litigation and a trial. The Government acknowledges that Norwich has made significant internal changes since 2008 to limit the possibility of similar misconduct in the future.
This matter was investigated by the United States Attorney's Office, the Department of Education's Office of Inspector General, and the Department of Education's Federal Student Aid Division. The United States was represented during the investigation by Assistant United States Attorney James Gelber. Norwich University was represented by Pietro Lynn of Lynn, Lynn &Blackman, P.C. of Burlington, VT.
Top
Printable view
Last Modified: 01/07/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov